<html>
<title> - H.R. 2278, THE RESPONSIBLE DISPOSAL REAUTHORIZATION ACT OF 2017; AND H.R. 2389, TO REAUTHORIZE THE WEST VALLEY DEMONSTRATION PROJECT AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







                  H.R. 2278, THE RESPONSIBLE DISPOSAL
  REAUTHORIZATION ACT OF 2017; AND H.R. 2389, TO REAUTHORIZE THE WEST 
          VALLEY DEMONSTRATION PROJECT AND FOR OTHER PURPOSES

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 2018

                               __________

                           Serial No. 115-130




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov 
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
32-962                    WASHINGTON : 2019                 
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, CaliforniaL RUIZ, 
RICHARD HUDSON, North Carolina           California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

<RAU>
                      Subcommittee on Environment

                         JOHN SHIMKUS, Illinois
                                 Chairman
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    RAUL RUIZ, California
TIM MURPHY, Pennsylvania             SCOTT H. PETERS, California
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
GREGG HARPER, Mississippi            DIANA DeGETTE, Colorado
PETE OLSON, Texas                    JERRY McNERNEY, California
BILL JOHNSON, Ohio                   TONY CARDENAS, California
BILL FLORES, Texas                   DEBBIE DINGELL, Michigan
RICHARD HUDSON, North Carolina       DORIS O. MATSUI, California
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................    49

                               Witnesses

Hon. Tom Reed, a Representative in Congress from the State of New 
  York...........................................................     6
    Prepared statement...........................................     8
Mark Gilbertson, Associate Principal Deputy Assistant Secretary 
  for Regulatory and Policy Affairs, Office of Environmental 
  Management, Department of Energy...............................    10
    Prepared statement...........................................    12
    Answers to submitted questions...............................    58
Noah Shaw, General Counsel and Secretary, New York State Energy 
  Research and Development Authority.............................    21
    Prepared statement...........................................    23
    Answers to submitted questions...............................    64

                           Submitted Material

Statement of Carmelo Melendez, U.S. Department of Energy.........    50
    Answers to submitted questions...............................    54
Statement of the Colorado Department of Public Health and 
  Environment....................................................    52
Letter of May 18, 2018 from Hon. Scott R. Tipton, a 
  Representative in Congress from the State of Colorado, to the 
  subcommittee...................................................    53 
 
 H.R. 2278, THE RESPONSIBLE DISPOSAL REAUTHORIZATION ACT OF 2017; AND 
H.R. 2389, TO REAUTHORIZE THE WEST VALLEY DEMONSTRATION PROJECT AND FOR 
                             OTHER PURPOSES

                              ----------                              


                          FRIDAY, MAY 18, 2018

                  House of Representatives,
                       Subcommittee on Environment,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:00 a.m., in 
room 2123, Rayburn House Office Building, Hon. John Shimkus, 
(chairman of the subcommittee) presiding.
    Present: Representatives Shimkus, McKinley, Johnson, 
Flores, Walberg, Duncan, Tonko, and Green.
    Staff Present: Samantha Bopp, Staff Assistant; Daniel 
Butler, Staff Assistant; Kelly Collins, Legislative Clerk, 
Energy and Environment; Margaret Tucker Fogarty, Staff 
Assistant; Jordan Haverly, Policy Coordinator, Environment; 
Zach Hunter, Director of Communications; Mary Martin, Chief 
Counsel, Energy and Environment; Drew McDowell, Executive 
Assistant; Peter Spencer, Senior Professional Staff Member, 
Energy; Austin Stonebraker, Press Assistant; Everett Winnick, 
Director of Information Technology, Priscilla Barbour, Minority 
Energy Fellow; Rick Kessler, Minority Senior Advisor and Staff 
Director, Energy and Environment; Jourdan Lewis, Minority Staff 
Assistant; Alexander Ratner, Minority Policy Analyst; Tuley 
Wright, Minority Energy and Environment Policy Advisor; and 
Catherine Zander, Minority Environment Fellow.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. The Subcommittee on the Environment will now 
come to order.
    The chair will recognize himself for 5 minutes for an 
opening statement.
    Thank you for joining us at this morning's hearing to 
review legislation to reauthorize two projects within the 
Department of Energy's portfolio of environmental remediation 
activities.
    I am pleased to report that last week, the House 
overwhelmingly passed the Nuclear Waste Policy Amendments Act 
of 2018. This long overdue legislation provides a disposal path 
for commercial spent nuclear fuel and our nation's defense 
high-level radioactive waste. This defense waste material 
requires the most careful handling and the most stringent 
isolation requirements in the Federal Government's inventory. 
However, extensive decontamination work remains to be 
accomplished across the country at DOE sites.
    DOE's Office of Environmental Management faces a 
significant workload to complete decontamination work at legacy 
Cold War sites. Since its establishment about 30 years ago, 
Environmental Management has successfully remediated 92 sites, 
but the most technologically challenging projects remain in 
process at 17 locations.
    This morning, Mr. Mark Gilbertson will represent the 
Department on issues addressed in the legislature proposals. 
Since this committee last discussed the critical programs under 
the Office of Environmental Management, the Department has 
welcomed a new Assistant Secretary, Anne White. We look forward 
to working with Assistant Secretary White on the rest of 
Environmental Management's portfolio.
    Our hearing today will discuss one of the Department's 
unique projects. During the early years of our nation's 
civilian nuclear industry, New York State leased land to a 
private entity to demonstrate the feasibility of reprocessing 
spent nuclear fuel. The legacy cleanup at the site, known as 
West Valley Demonstration Project, is jointly overseen by DOE 
and the New York State Energy Research and Development 
Authority, on behalf of New York State.
    Prior to his election to Congress, the ranking member of 
this subcommittee, Mr. Tonko, was the President and CEO of 
NYSERDA. I look forward to the unique perspective and the 
interests he brings to this morning's hearing based on his 
previous experience.
    In 1980, Congress passed the West Valley Demonstration 
Project Act to direct DOE to partner with New York to address 
legacy environmental issues, and authorized $5 million to spend 
on this project for fiscal year 1981. The project has not been 
reauthorized since, and Congressman Reed's bill provides 
Congress a chance to review the project. The lingering question 
of how to dispose of the high-level radioactive waste, which 
was generated prior to passage of the Nuclear Waste Policy Act, 
is an important one that needs further examination.
    I welcome my colleague here this morning, and thank Mr. 
Reed whenever he shows up, for his leadership on behalf of his 
constituents to bring attention to ongoing issues at the West 
Valley site.
    DOE will provide context regarding key upcoming milestones 
and remaining challenges at the West Valley site, while NYSERDA 
will give a voice to the New York State government. These 
respective viewpoints provide this subcommittee important 
information as Congress considers the next steps at the site.
    We will also receive testimony on a bipartisan bill 
sponsored by Congressman Tipton to extend the authorization of 
the Grand Junction, Colorado, disposal cell. Mining and 
processing uranium generate a byproduct known as uranium mill 
tailings. Congress passed the Uranium Mill Tailings Radiation 
Control Act 40 years ago to establish a framework for DOE to 
dispose of mill tailings. The bill also authorized the Grand 
Junction, Colorado, site to serve as a disposal location.
    H.R. 2278, the Responsible Disposal Reauthorization Act, 
extends the site's authorization for another 25 years. The 
proactive reauthorization exemplifies the foresight needed for 
these disposal sites to plan accordingly.
    I am pleased to hold the hearing today, and I look forward 
to the testimony.
    And with that, I have a minute remaining. Does anyone seek 
the rest of my time?
    Seeing none, the chair now recognizes the ranking member of 
the subcommittee, Mr. Tonko, for 5 minutes.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Thank you for joining us at this morning's hearing to 
review legislation to reauthorize two projects within the 
Department of Energy's (DOE) portfolio of environmental 
remediation activities.
    I am pleased to report that last week the House 
overwhelmingly passed the Nuclear Waste Policy Amendments Act 
of 2018. This long-overdue legislation provides a disposal path 
for commercial spent nuclear fuel and our nation's defense 
high-level radioactive waste. This defense waste material 
requires the most careful handling and the most stringent 
isolation requirements in the Federal government's inventory; 
however, extensive decontamination work remains to be 
accomplished across the country at DOE sites.
    DOE's Office of Environmental Management faces a 
significant workload to complete decontamination work at legacy 
Cold War sites. Since its establishment about 30 years ago, EM 
has successfully remediated 92 sites, but the most 
technologically challenging projects remain in process at 17 
locations.
    This morning Mr. Mark Gilbertson will represent the 
Department on the issues addressed in the legislative 
proposals. Since this Committee last discussed the critical 
programs under the Office of Environmental Management, the 
Department has welcomed a new Assistant Secretary, Anne White. 
We look forward to working with Assistant Secretary White on 
the rest of EM's portfolio.
    Our hearing today will discuss one of the Department's 
unique projects. During the early years of our nation's 
civilian nuclear industry, New York State leased land to a 
private entity to demonstrate the feasibility of reprocessing 
spent nuclear fuel. The legacy cleanup at the site, known as 
the West Valley Demonstration Project, is jointly overseen by 
DOE and the New York State Energy Research and Development 
Authority, on behalf of New York State.
    Prior to his election to Congress, the Ranking Member of 
this Subcommittee, Mr.Tonko, was the President and CEO of 
NYSERDA. I look forward to the unique perspective and interest 
he brings to this morning's hearing based on his previous 
experience.
    In 1980, Congress passed the West Valley Demonstration 
Project Act to direct DOE to partner with New York to address 
legacy environmental issues and authorized five million dollars 
to spend on this project for Fiscal Year 1981. The project has 
not been reauthorized since and Congressman Reed's bill 
provides Congress a chance to review the project. The lingering 
question of how to dispose of the high-level radioactive waste, 
which was generated prior to passage of the Nuclear Waste 
Policy Act, is an important one that needs further examination.
    I welcome my colleague here this morning and thank Mr. Reed 
for his leadership on behalf of his constituents to bring 
attention to ongoing issues at the West Valley site.
    DOE will provide context regarding key upcoming milestones 
and remaining challenges at the West Valley site, while NYSERDA 
will give a voice to the New York State government. These 
respective viewpoints provide this Subcommittee important 
information as Congress considers the next steps at the site.
    We will also receive testimony on a bipartsian bill 
sponsored by Congressman Tipton to extend the authorization of 
the Grand Junction, Colorado disposal cell. Mining and 
processing uranium generate a byproduct known as uranium mill 
tailings. Congress passed the Uranium Mill Tailings Radiation 
Control Act 40 years ago to establish the framework for DOE to 
dispose of mill tailings. The bill also authorized the Grand 
Junction, Colorado site to serve as a disposal location.
    H.R. 2278, the Responsible Disposal Reauthorization Act, 
extends the site's authorization for another 25 years. The 
proactive reauthorization exemplifies the foresight needed for 
these disposal sites to plan accordingly.
    I am pleased to hold this hearing today and look forward to 
the testimony.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair.
    And, first, let me welcome our colleague from New York, Mr. 
Reed, to discuss his bill on the West Valley Demonstration 
Project. Thank you for your interest, Tom. It is an important 
part of the energy concept in New York and environmental 
concerns.
    I also want to welcome our other witnesses, Mark Gilbertson 
of DOE's Office of Environmental Management, and Noah Shaw, who 
I am proud to say is representing my former employer, the New 
York State Energy Research and Development Authority. NYSERDA 
is, I think, a great collection of consummate professionals. 
Thank you, Noah, for being part of that and for the legal 
expertise you provide and for your commitment to West Valley. 
It is incredibly important.
    Thank you both for joining us for this legislative hearing 
on two bills: H.R. 2278, the Responsible Disposal 
Reauthorization Act of 2017; and H.R. 2389, to reauthorize the 
West Valley Demonstration Project.
    While this committee, under the leadership of Chair 
Shimkus, has made progress in addressing some of our nation's 
most significant nuclear waste challenges, a number of 
outstanding issues remain.
    DOE's Office of Environmental Management was established to 
remediate sites contaminated with high-level radioactive waste, 
spent nuclear fuel, excess uranium and plutonium, and 
contaminated soil and groundwater. These sites located across 
the country are dealing with the legacy of our nation's entry 
into the atomic age.
    The Uranium Mill Tailings Radiation Control Act established 
a process for remediating an active uranium or processing 
sites, such as the site in Grand Junction, Colorado. H.R. 2278 
would authorize DOE to continue to operate the Cheney Disposal 
Cell until September 30 of 2048, or until the disposal cell is 
filled to capacity. Currently, DOE is authorized to operate 
this cell through September of 2023.
    I want to give some additional attention to Mr. Reed's 
legislation. The bill authorizes some $75 million for the West 
Valley Demonstration Project for fiscal years 2017 through 
2026. This is identical to the amount appropriated in fiscal 
year 2018, and will ensure the cleanup will continue on 
schedule. But West Valley is a unique site. Its history is 
unlike other properties, and this has caused the point of 
disagreement between the relevant stakeholders for decades, 
which is addressed in the other provision of H.R. 2389.
    From 1966 through 1972, the Western New York Nuclear 
Service Center was the only privately-owned facility for spent 
nuclear fuel reprocessing in the United States. When that 
business ceased operating, the site eventually reverted back to 
its owner, New York State. And, of course, DOE's predecessor, 
the Atomic Energy Commission, was intimately involved in the 
operation of the site.
    Approximately 60 percent of the spent nuclear fuel 
reprocess at the site came from Hanford, and 80 percent of the 
recovered plutonium was returned to Hanford. Ultimately, this 
activity resulted in transuranic waste and high-level nuclear 
waste continuing to be stored at that site.
    This bill is not the first time Congress has had to 
consider a unique solution to address West Valley. In 1980, 
Congress passed the West Valley Demonstration Project Act, 
which directed DOE to carry out high-level radioactive waste 
management. This bill made DOE responsible for 90 percent of 
the cost of the site's cleanup. And 2 years later, the Nuclear 
Waste Policy Act made it clear that costs resulting from 
permanent disposal of high-level radioactive waste from atomic 
energy defense activities should be paid by the Federal 
Government. However, since 1986, based on a DOE IG report, DOE 
has classified the high-level waste at West Valley as 
commercial waste, rather than waste deriving from atomic energy 
defense activities.
    Under this formulation, DOE believes the cost for disposal 
of the waste should be borne by the State of New York due to 
its ownership of the site, and that is the crux of the 
disagreement. I understand that DOE will reiterate that under 
the statute. It cannot own the waste at West Valley. But that 
is immaterial to the question of who is responsible for bearing 
the cost of cleaning up and disposing of it.
    The standard under the Nuclear Waste Policy Act is whether 
the waste was generated in whole or in part from any atomic 
energy defense activity or at any facility used in connection 
with any such activity. Under the Act it is either defense 
related or not.
    So where the waste generated, as a result of atomic energy 
defense activities, I think the record is clear that this is 
the case for West Valley. The high-level radioactive waste and 
transuranic waste left at this site are primarily from atomic 
energy defense activities and should be disposed of as such, 
but obviously this issue remains unsettled, which is why we are 
here today.
    I look forward to a full debate on West Valley this 
morning. And even if this bill does not move forward, I will 
continue to urge DOE to engage with the State of New York to 
try to each an understanding on this critical issue.
    So, Mr. Chair, I thank you again, and yield back, and look 
forward to hearing from our witnesses.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair doesn't see the chairman of the full committee 
nor the ranking member, so with that, we will conclude our 
member opening statements.
    The Chair would like to remind members that pursuant to 
committee rules, all members' opening statements will be made 
part of the record.
    We want to thank all our witnesses for being here today and 
taking the time to testify before this subcommittee. Today's 
witnesses will have the opportunity to give opening statements 
followed by a round of questions, although we usually don't 
question Members of Congress, especially you.
    Mr. Tonko. There was a key word there: ``usually.''
    Mr. Shimkus. That is right.
    Our first witness panel for today's hearing includes the 
Honorable Tom Reed, Member of the U.S. House of 
Representatives, from the great State of New York. With that, 
sir, you are recognized for 5 minutes.

 STATEMENT OF HON. TOM REED, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Mr. Reed. Well, thank you very much, Chairman. And good 
morning to my colleagues, to the Ranking Member Tonko and my 
fellow colleagues on the committee today. Thank you for an 
opportunity to address you and to offer testimony in regards to 
the legislation.
    I am proud to have introduced H.R. 2389, to reauthorize the 
West Valley Demonstration Project, along with my colleagues, 
Congressman Nadler and Higgins, and the late Congresswoman 
Slaughter.
    Nuclear cleanup sites must be at the top of the priority 
list. There are still nuclear sites in the United States that 
need to be managed and cleaned up. The Western New York Nuclear 
Service Center in my district is one such site.
    The Department of Energy estimates that making the 
investments needed now in nuclear site remediation will save 
our nation hundreds of millions of dollars in the coming 
decades. The cleanup at this site, designated the West Valley 
Demonstration Project, is very important to our constituents in 
New York State, as nuclear waste cleanup is a matter of 
environmental health and the health and safety of our fellow 
citizens.
    I have worked with the constituents on the West Valley 
Citizen Task Force, the Department of Energy, State and local 
officials, along with my colleagues in Congress, to raise 
awareness about the need for consistent funding at this 
facility. Given the public safety issue of dealing with 
radioactive waste and the long-term cost savings, this bill 
makes good sense from a governmental and a financial 
standpoint.
    H.R. 2389 will provide the necessary resources over a 
sufficient number of years to continue the cleanup work 
required by the Demonstration Project Act. At its core, the 
Western New York Nuclear Service Center was an Atomic Energy 
Commission project. And because New York State was encouraged 
by the AEC to develop it, the Federal Government should provide 
a disposal path for all waste on the site.
    Records show that the majority of waste at the site was the 
result of reprocessing federally owned nuclear fuel, most of it 
from the Federal Government's Hanford facility in Washington 
State. The result of that reprocessing then went to the Federal 
Government, in some part for weapons research or weapons use.
    In summary, this bill will authorize sufficient funding to 
continue the cleanup work and reduce overall life cycle costs 
and treat all radioactive waste at the site as resulting from 
the atomic energy defense activities. I appreciate your 
commitment to this important issue, and encourage you and your 
staffs to continue working with our office, as we will work 
with you to solve this important issue.
    Thank you very much for your time this morning. I do look 
forward to your questions, but hopefully you will honor the 
commitment of not asking those questions of your witness before 
you.
    With that, I yield back the balance of my time.
    [The prepared statement of Mr. Reed follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman yields back his time.
    The gentleman from Texas, do you seek recognition?
    Mr. Flores. No, I was just going to ask him a hard 
question, but I know he couldn't answer it so----
    Mr. Shimkus. The gentleman yields back his time.
    So thank you, Tom, for being here. Obviously, you have got 
a good ally and friend who is the ranking member of the 
subcommittee. We have worked well on a lot of issues together, 
so this will be something new for many of us, and we look 
forward to finding out more about it.
    With that, you are dismissed.
    Mr. Reed. Thank you very much. Have a good day.
    Mr. Shimkus. And we will sit the second panel down.
    So welcome.
    Joining us now is Mr. Mark Gilbertson, Associate Principal 
Deputy Assistant Secretary, that is a mouthful, for Regulatory 
and Policy Affairs, the Office of Environmental Management, 
Department of Energy.
    Sir, you are recognized for 5 minutes, and welcome.

   STATEMENT OF MARK GILBERTSON, ASSOCIATE PRINCIPAL DEPUTY 
 ASSISTANT SECRETARY FOR REGULATORY AND POLICY AFFAIRS, OFFICE 
       OF ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY

    Mr. Gilbertson. Thank you.
    Good morning, Chairman Shimkus, Ranking Member Tonko, and 
members of the subcommittee. I also would like to recognize 
Representative Reed's interest on behalf of his district and 
the support for the West Valley site. Thank you for the 
opportunity to appear before you today to represent the 
Department of Energy's Office of Environmental Management. I 
will provide you with an overview of the impacts of the bill, 
H.R. 2389, which proposes to amend the West Valley 
Demonstration Act.
    Regarding the bill, the Department has several concerns. 
Section 1(b) of the bill appears to be inconsistent with 
section 5(b) of the West Valley Demonstration Project Act, as 
it could be construed to have the effect of assigning the 
Department the responsibility and financial liability for all 
radioactive waste at West Valley resulting from atomic energy 
defense activities.
    Further, section 1(b) would not be consistent with the 
Department's financial responsibilities that are clearly 
defined in existing laws, agreements, and settlements, as well 
as the Department's historical position on responsibilities and 
liabilities for the vitrified commercial high-level radioactive 
waste.
    For example, the consent decree entered into by the State 
of New York and the Federal Government provides that the 
Federal Government is only responsible for 50 percent of the 
cost, depending on the activity, for the Nuclear Regulatory 
Commission licensed disposal area.
    The Federal Government and the State of New York have 
reached similar allocation agreements regarding other cleanup 
activities at West Valley. The proposed bill contradicts, 
without expressly eliminating, these legally binding 
agreements. This could also set a precedent for the 
Department's liability for disposal costs for other commercial 
waste that would be designated as defense waste.
    The Department's historical position has been and remains 
that the high-level radioactive waste was generated as a result 
of commercial activities. And the explicit mission of the AEC, 
Atomic Energy Commission, was to foster a private nuclear 
industry, including a private reprocessing capability. The 
Atomic Energy Commission made its reprocessing technology 
available to private industry and also provided spent nuclear 
fuel for reprocessing operations in order to incentivize 
private investment and reprocessing business operations.
    While 60 percent of the spent nuclear fuel reprocessed at 
West Valley did come from the end reactor at Hanford, this 
reactor generated both electricity and plutonium for the 
nuclear weapons program. This arrangement was agreed to in a 
deliberative manner to honor the Federal Government's 
commitment to provide spent nuclear fuel to support West 
Valley's commercial reprocessing operations.
    The contract to provide spent fuel from the Department for 
reprocessing at West Valley was entered into for this purpose, 
not as a means to manage or dispose of defense spent nuclear 
fuel. The West Valley Demonstration Project Act of 1980 
explicitly assigns title to the West Valley vitrified 
commercial high-levelradioactive waste with the State, and 
deferred the question of its ultimate disposition to generic 
legislation then under consideration.
    The Nuclear Waste Policy Act of 1982, passed just 2 years 
later, did not alter the West Valley Demonstration Act 
provisions. The disposition of the West Valley vitrified 
commercial high-level radioactive waste was the responsibility 
of New York State and not the Department.
    Thank you for providing me with the opportunity to 
represent the Department's views on H.R. 2389. The Department's 
Office of Environmental Management is committed to achieving 
its mission and will continue to apply innovative environmental 
cleanup strategies to complete its work at West Valley in a 
safe, efficient, and cost effective manner, to serve as a 
strong steward of taxpayer resources.
    I am pleased to answer any questions you may have.
    [The prepared statement of Mr. Gilbertson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you, sir.
    And now we will go to a round of questions, and I will 
start by recognizing myself for 5 minutes.
    When Congress directed the Department to partner with the 
State of New York to remediate this site, Congress explicitly 
prohibited DOE from acquiring title to any high-level 
radioactive waste at the site. This leaves the waste in the 
hands of the State of New York. As we will hear from the next 
witness, Congress recognized that the Federal Government had a 
role in cleaning up the site, and Congress has met this 
commitment by appropriating over $1.4 billion just over the 
last 20 years for this purpose. H.R. 2389 would reclassify the 
waste as a result from atomic energy defense activities, 
thereby affecting previously established disposal 
responsibility.
    According to New York, there is a balance of nearly $30 
million set aside to pay for disposal costs in a trust fund 
from a legacy account in 2016. But in 1986, the DOE, Department 
of Energy IG, said that the State would owe $68 million to the 
Nuclear Waste Fund.
    Has DOE reassessed how much would be due to the waste fund 
based on that outdated estimate?
    Mr. Gilbertson. Thank you for that question. We have not 
reassessed that amount recently in recent times, and I would 
like to take that question for the record.
    Mr. Shimkus. Thank you. Has DOE conducted any preliminary 
cost analysis to determine how much it would cost to dispose of 
West Valley waste, either at a commercial facility for the 
Greater-than-Class C or at another disposal facility?
    Mr. Gilbertson. Thank you for that question. At the present 
time, the Department has not analyzed that particular cost 
because the repository is not available to take the waste.
    Mr. Shimkus. Would you agree that having that information 
would be helpful to move the conversation forward?
    Mr. Gilbertson. Could you please repeat that, sir?
    Mr. Shimkus. We are asking these questions obviously to put 
in the record but also try to figure out how we move forward. 
Do you think that our ability to have that information will 
help us deliberate and decide to move forward in one way or 
another?
    Mr. Gilbertson. I believe it would help you.
    Mr. Shimkus. OK. That's all the questions I have.
    The Chair now recognizes the ranking member of the sub, Mr. 
Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Chair Shimkus.
    Mr. Gilbertson, thank you for being here and for the work 
done by the Office of Environmental Management. I hope today's 
discussion can help us better understand some of the 
disagreements around the West Valley site.
    In October of 2016, members of New York's delegation, 
including Mr. Reed, who we just heard from, and myself, wrote 
to DOE regarding West Valley. And we asked for calculations, 
including the method of such calculations of the Nuclear Waste 
Policy Act disposal fee for the State of New York and how much 
it would have to pay if such a fee were to be assessed both 
today and in 2048.
    Now, in response to the chair, you just indicated that you 
will work on that information and get it to the subcommittee, 
and I hope it does include the methodology along with the 
number. I think that would be useful information. And so, thank 
you for agreeing to provide that to the committee.
    In DOE's response to that October 2016 letter, DOE stated, 
and I quote, ``There may be considerable merit in disposing of 
the West Valley high-level waste and defense high-level waste 
in the same repository.'' And we do believe such a conversation 
is timely and would welcome a dialogue with the State of New 
York and other interested parties with respect to the potential 
disposal of the West Valley high-level waste.
    I understand from the State that other than one initial 
meeting, and I believe that was in March of 2017, DOE has not 
responded to requests to engage in any such discussion. Can you 
or will you commit to following up with the State of New York 
on this matter and to provide whatever information you can in 
response to the State's request?
    Mr. Gilbertson. Thank you for that question. We have an 
ongoing dialogue with the State where we are exploring through 
the Phase II planning process, which I am sure you are aware 
of, the ultimate disposition of a lot of the materials on the 
site. So it has been a conversation and I agree that it will be 
a conversation going into the future. So, yes, we will talk 
with the State, continue to talk with the State about that.
    Mr. Tonko. All right. And NYSERDA's review of documents 
from the West Valley site shows that 60 percent of the 
materials sent to West Valley was from facilities where defense 
activities were underway and that 80 percent of the reprocessed 
plutonium shipped out of West Valley was sent to Federal 
defense facilities. Also, that the character of the materials 
was suitable for bomb making, not civilian uses.
    So do you have any reason to question these facts? And 
would you agree that if they are true, then the West Valley 
waste was generated at least in part related to defense 
activities?
    Mr. Gilbertson. Thank you for that question. Those facts 
are facts that have been known for a long period of time. They 
have been known since when the original act was put into place. 
It is the Department's position, based on that set of facts, 
that the materials that we provided were for commercial 
purposes and not defense. So I think that we stipulate that the 
facts are the correct facts. We have a different interpretation 
of what that material is.
    Mr. Tonko. I would hope that these would be the cornerstone 
of the discussion between the State of New York and the 
Department.
    In your testimony, you noted that DOE does not own the West 
Valley site. As I understand it, this bill does not implicate 
ownership. And the question whether the waste is related to 
defense activities does not need to be directly linked to who 
technically owns it.
    Apart from the ownership question, is there any evidence 
that has caused DOE to believe that the majority of this waste 
is not related at least in part to defense activities?
    Mr. Gilbertson. So we go back to the origins of the intent 
of why the material was provided to West Valley. The material 
was provided to West Valley for commercial purposes, which is 
why we have the split with regard to costs we are doing the 
work at the sites that we do. So we believe that this is the 
long-standing position that we have, it is commercial material.
    Mr. Tonko. But you say that, but the products sent back 
were all usable or characterized as defense related, the 
reprocessed materials. So how can you suggest that there is not 
a defense-related component to that?
    Mr. Gilbertson. So the materials that were taken back, you 
are right, the percentages of materials have been known for a 
long time where they went, it was part of a commercial process. 
So we believe that the material was provided originally to a 
commercial kind of process, would allow it to be sold back as a 
commercial entity, and so----
    Mr. Tonko. But if it is sold to a private entity doesn't 
mean it is ranked commercialized; it was being used for 
defense-related purposes. Isn't that at the crux of this 
question here? Isn't that the big debate? And doesn't it 
suggest or indicate strongly that it is defense related?
    Mr. Gilbertson. So I believe this set of facts and 
information was known when the act was put in place originally 
when we entered into negotiations with the State of New York. 
We have moved forward with the cleanup with regard to the 
division of responsibilities and have--it is our position that 
it was provided for commercial purposes in that we have divvied 
up the responsibilities for costs with regard to moving forward 
with the cleanup at the site.
    Mr. Tonko. Well, I am out of time, but I do have to 
indicate that acts are always revisited and that there is 
always amending that can be done. And I think as more 
information is presented, we need to have the facts guide us.
    And, with that, I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The chair would now recognize the gentleman from South 
Carolina, Mr. Duncan, for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    And, Mr. Gilbertson, thanks for being here today. For 
States that have a Department of Energy cleanup site, the 
disposal of radioactive waste is a top priority. I know this 
because we have one in South Carolina, the Savannah River Site. 
It is right outside my district, but I am very engaged with the 
site.
    SRS serves as a DOE site responsible for cleanup, waste 
management, and disposition of nuclear materials. Sixty percent 
of the missions at SRS are environmental management missions. 
This includes the disposition of solid, liquid, and transuranic 
waste. One of the largest check DOE EM projects of liquid waste 
is the liquid waste cleanup at SRS. The South Carolina 
Department of Health and Environmental Control describes its 
mission as the single greatest environmental risk at South 
Carolina.
    I have been to the tank farms. I have seen the 
vitrification facilities. I have been to Hanford. I have seen 
the closure process out there with EM. The defense waste 
processing facility at SRS vitrifies high-level waste, has been 
doing so for over 20 years, and remains the only site in the 
country able to do so. I guess Hanford has got a defense waste 
vitrification plant underway, I don't know the status of that. 
When I was there in 2008 092009, they were working on it.
    There is over 34 million gallons of radioactive byproduct 
held in 45 waste tanks at Savannah River Site. So from your 
perspective at DOE's Office of Environmental Management, what 
do you believe the Department's cleanup priorities are for the 
Savannah River Site?
    Mr. Gilbertson. So for the Savannah River Site, we do 
believe that cleanup of the tank waste is the highest priority 
for the Department to complete there. And we are moving forward 
with the Salt Waste Processing Facility to bring that onboard 
so we can clean up the tanks at an even faster pace down there 
at Savannah River.
    Mr. Duncan. Is the priority to single line the thinner 
metal tanks first?
    Mr. Gilbertson. Right. The priority are the higher risk 
tanks first, to disposition the materials in those tanks first. 
Yes.
    Mr. Duncan. So more than half of DOE's environmental budget 
at SRS is spent on this tank waste, and some tank waste meets 
the WIPP acceptance criteria, but it cannot be sent there 
because it is considered high-level waste due to how that waste 
was created, right? So WIPP is currently limited to only being 
able to accept defense-related transuranic waste. This is the 
issue with West Valley that we have been discussing earlier. 
And can you talk a little bit about how the lack of clarity of 
what is considered high-level waste affects disposal efforts at 
Savannah River Site?
    Mr. Gilbertson. So we believe that under the 435 order, 
that we have the ability to disposition various materials. And 
there has been legislation that was put in place to affect your 
site. The 3116 legislation that allowed us to dispose of tank 
waste materials not as high-level waste. So there are 
provisions with the regulations. We are constantly looking at 
ways to improve the process to make it more clear as to what 
waste can be dispositioned in the proper technical manner at 
sites.
    Mr. Duncan. Do you see in the future the ability to take 
this vitrified high-level waste from sites like Savannah River 
Site, and if Yucca is not online, to a place like WIPP?
    Mr. Gilbertson. So at the present time, we are not able to 
take----
    Mr. Duncan. Because of the classification?
    Mr. Gilbertson [continuing]. Take tank waste to the WIPP 
facility to dispose of it. There is a provision in the current 
permit that doesn't allow us to take tank waste. We have a 
permit modification that we put in to the State of New Mexico 
to potentially allow for them to take tank waste.
    The issue is, is currently, as defined, the high-level 
waste, without some clarifications, tank waste can't go to the 
WIPP facility. The issues of it, there is a potential for some 
of the material that is tank waste, though, to be within the 
characteristics, technical characteristics of what can be 
disposed of from a performance assessment perspective at WIPP.
    Mr. Duncan. So I am about out of time. Let me make this 
statement.
    You can't take the waste from the tank farms and the EM 
efforts at Savannah River Site, even though it is similar to 
the waste from other places, because of how it is created, and 
its classification is highly radioactive waste--defense waste--
because it was created for defense purposes.
    I can tell you, if it doesn't go to WIPP, it needs to go to 
Yucca Mountain. And If Yucca Mountain doesn't come onsite, we 
are going to have to do something, because the concrete slab 
that these vitrified, stainless steel tanks are sitting in, 
under a metal building at Savannah River Site, is not a long-
term repository for this waste.
    It is time for this nation to follow the law, which is 
Yucca Mountain. Open Yucca Mountain up and let's get this waste 
out of South Carolina and out of Hanford and out of Idaho and 
out of Oak Ridge, and all the other places where it is stored, 
and put it in a long-term repository known as Yucca Mountain, 
because it was studied and it is the law of the land and it is 
time for us to do that.
    With that, Mr. Chairman, I yield back.
    Mr. Shimkus. The chair appreciates your passion, and we are 
glad you are on the committee.
    So the chair now recognizes the gentleman from Mr. Flores, 
for 5 minutes.
    Mr. Flores. It is OK. We have been there since 1725, so it 
will work out.
    Mr. Gilbertson, one quick question. What would happen if 
the Cheney disposal site is closed?
    Mr. Gilbertson. Please repeat that, sir.
    Mr. Flores. What would happen if the Cheney Disposal Cell 
is closed?
    Mr. Gilbertson. If the chain?
    Mr. Flores. Cheney. The one in Colorado.
    Mr. Gilbertson. So I am not familiar with that disposal 
cell, and so I will take that question for the record.
    Mr. Flores. It is the only location in the country that can 
take uranium mining tailings. So we will submit the question 
for the record and ask you to respond supplementally.
    That is it. I yield back.
    Mr. Shimkus. The gentleman yields back.
    At this time, seeing no other members wishing to ask 
questions, we would like to thank you for being here and thank 
you for answering our questions. Obviously, some of my 
colleagues are going to pose some questions, including myself, 
for you. We would hope you get those back to us in a timely 
manner, and you are dismissed. Thank you for being here.
    Mr. Shimkus. So for our last panel, we have Mr. Noah Shaw, 
general counsel and secretary, New York State Energy Research 
and Development Authority. Sir, thank you for being here. I 
have learned a lot this morning, and I look forward to learning 
more.
    With that, you are recognized for 5 minutes. Your full 
statement has already been submitted for the record.

STATEMENT OF NOAH SHAW, GENERAL COUNSEL AND SECRETARY, NEW YORK 
        STATE ENERGY RESEARCH AND DEVELOPMENT AUTHORITY

    Mr. Shaw. Good morning, Mr. Shimkus, Ranking Member Tonko, 
and members of the committee. My name is Noah Shaw. I am the 
general counsel of the New York State Energy Research and 
Development Authority, or NYSERDA. It is my honor to be here 
today, not only to support the long-term reauthorization of 
funding for the cleanup of the Western New York Nuclear Service 
Center, known as the West Valley site, but also to present you 
with facts regarding the defense origin of West Valley's 
nuclear waste.
    Before I begin, let me just say that I appreciate 
Congressman Tonko's opening statement, which tees up my 
testimony in which I will expand on the discussion of the 
defense origins of West Valley's nuclear waste.
    Activities at the West Valley site began in the early 1960s 
when the Department of Energy's predecessor, the U.S. Atomic 
Energy Commission, or AEC, provided a so-called baseload of 
spent nuclear fuel from defense-related sources. The intent was 
that such an arrangement would only be necessary until 
additional civilian nuclear plants could be constructed. But, 
ultimately, during the facility's operation from 1966 to 1972, 
60 percent of the fuel reprocess came from defense-related 
activities. About 80 percent of the plutonium and 99.8 percent 
of the uranium shipped out of West Valley went back to defense 
complex sites.
    In 1972, nuclear fuel services, which operated the 
facility, shut it down for upgrades and then never reopened it. 
NFS withdrew from the reprocessing business and turned West 
Valley, which was by then highly contaminated, over to New York 
State, which owned the property.
    In 1980, Congress passed the West Valley Demonstration 
Project Act, pursuant to which the Department of Energy has 
taken possession of more than 150 acres where the reprocessing 
activities took place and the Federal Government agreed to pay 
90 percent of the cleanup costs. Two years later, in 1982, 
Congress passed the Nuclear Waste Policy Act, which recognized 
the Federal Government's responsibility for permanent disposal 
of high-level radioactive waste from the country's atomic 
energy defense activities.
    Historically, the Federal Government has recognized that 
West Valley waste was from defense sources. The Congressional 
Record supporting the 1980 West Valley Demonstration Project 
Act includes many references to how and why the West Valley 
site's cleanup is appropriately a Federal responsibility, given 
the site's role in the country's defense complex. And even the 
Department of Labor's employee compensation program for work-
related illnesses at DOE complex sites, which was set up less 
than 20 years ago, designates West Valley as an ``atomic 
weapons employer.''
    However, in 1986, the Department of Energy Inspector 
General, without explanation, designated West Valley as a 
``commercial site,'' in a report regarding the growing 
potential costs of the NWPA. This designation has been repeated 
by DOE ever since without any stated factual or legal support.
    West Valley is truly unique, as both the chair and ranking 
member have stated today. It is the only site managed by the 
Office of Environmental Management with onsite waste that DOE 
calls commercial or where DOE asserts that the State is 
responsible for a disposal fee. West Valley also houses the 
only transuranic waste in the Nation, waste that was generated 
by DOE as part of its cleanup project that is prohibited from 
disposal at the Waste Isolation Pileup Plant, WIPP, in New 
Mexico.
    DOE's designation of the West Valley waste as commercial 
not only creates a roadblock to completing the cleanup of the 
site, but it also means that scarce EM cleanup funds have to be 
expended for potentially perpetual storage of the TRU at West 
Valley.
    On January 13, 2017, DOE wrote to Congressman Higgins, 
after discussions between the Department and the New York 
delegation, to say that DOE had determined that it would 
consider whether West Valley waste could or should be disposed 
of with the remainder of the country's similarly packaged 
waste. But despite its repeated attempts to discuss this matter 
with the Department since then, DOE staff has failed to engage.
    This is just the latest in a long history of DOE's apparent 
resistance to addressing this matter. Repeatedly stating its 
``historical position'' that it doesn't own the waste and, 
therefore, isn't responsible for its disposition, even though 
ownership, per se, is not a relevant question with respect to 
whether the waste is defense related or not. To say the issue 
is lingering may be an understatement, at least as far as New 
York and the surrounding communities are concerned.
    The State is left to conclude that legislation is the only 
path forward regarding how the West Valley waste will be 
disposed, just as, in 1980, Congress had to intervene regarding 
the responsibility for the site's cleanup.
    A statutory designation of the West Valley waste as defense 
waste would finally allow it to be treated similarly to the 
other high-level and transuranic waste associated with our 
country's atomic defense activities. This is the equitable 
outcome for these wastes for the site, and for the communities 
who have now hosted the site for generations.
    We also wish to emphasize the importance of funding 
authorization. Funding for the West Valley cleanup has been at 
an all time low in recent years. Appropriate funding levels 
allow for work to continue as contemplated by the Act, by the 
West Valley Demonstration Project Act. And in the absence of 
appropriate funding levels, work is delayed, adding to total 
project cost and timeframe.
    Thank you for your attention, and I am happy to answer any 
questions you may have.
    [The prepared statement of Mr. Shaw follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Shimkus. Thank you very much, sir.
    And I will recognize myself for 5 minutes for opening 
questions.
    Enactment of H.R. 3053 would break the current impasse on 
our nation's nuclear waste management program and provide a 
path to complete the Yucca Mountain repository, while allowing 
DOE to pursue temporary storage efforts in the meantime. Your 
testimony notes concern that a repository might not be 
available for decades, but with congressional support, the 
nuclear waste could be transported well within a decade.
    Do you support reconstituting DOE's nuclear waste 
management program and moving forward with a repository and 
storage program to remove the West Valley waste?
    Mr. Shaw. We support a pathway for the West Valley waste, 
whether that pathway is an interim solution----
    Mr. Shimkus. OK. We need your help here, right? I have this 
debate and discussion with locations all around the country. If 
you need it moved, you have to have a place for it to go. There 
is current law of the land, which is a Nuclear Waste Policy 
Act, amended in 1987, the national government assigned a 
location. That location has been politically blocked for about 
9 years. We are unblocking it.
    It would be helpful for States to realize what the Federal 
law is and be helpful. A lot of the New York colleagues have 
been strongly supportive of the bill we just passed last week. 
It is kind of timely that you are here now. And so if you don't 
want it there, you have to have a place to go.
    What we have done in H.R. 3053 is allow both options for 
completion, and I am going to--the follow-up question will show 
the timeliness of this. But we have accepted the premise that 
an interim is an important process in getting to a final 
repository.
    Without a national solution, you will be an interim site 
forever, right? And no one wants that. Science is a long-term 
geological repository, and so--I am not meaning to lecture, we 
are just asking for your help----
    Mr. Shaw. I understand.
    Mr. Shimkus [continuing]. In how we phrase this to your 
State and to the Nation. What is the current estimated 
timeframe for DOE to complete the decontamination and 
remediation of the West Valley facilities?
    Mr. Shaw. There is, as you may know, an ongoing 
supplemental environmental impact statement process with 
respect to the future of the site right now. The range of 
options includes, obviously, as you might imagine, a variety of 
timeframes for the completion of the project. I think the last 
EIS suggested that we could be looking at anywhere from 10 to 
35 years. I think that we will know more about the likely 
timeframe once the SEIS process is completed.
    Mr. Shimkus. And I think DOE has between 2040 and 2045, 
which would be the worst-case scenario. Based on the estimated 
work remaining and the timelines associated with DOE's waste 
management program, it seems that the best and the most 
expeditious disposal path available to the State of New York is 
to have the Senate consider the bipartisan nuclear waste bill 
passed by the House just last week.
    And, again, I wanted to thank my colleagues, obviously, and 
the ranking member who was very helpful in moving this forward.
    By the time West Valley is done, worst case 2045, the 
repository will be open and accepting long-term geological 
storage. So we are glad to have you there, and I would take 
back to your folks in the State that a positive response on the 
Nation trying to solve this problem for all 50 States is moving 
forward, and we would hope that New York State would be fully 
supportive.
    With that, I yield back my time, and I turn to the ranking 
member of the subcommittee, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    And, Mr. Shaw, thank you again for your testimony and, 
again, thank you for your work on behalf of the residents of my 
home State of New York. It is helpful for the committee to have 
a full understanding of the history of the West Valley site.
    Can you explain what the effect would be on ultimate 
cleanup of the West Valley site if H.R. 2389 became law?
    Mr. Shaw. It would provide a pathway for both the 
transuranic waste and a practical pathway for the high-level 
waste. Right now, because of the commercial designation, the 
transuranic waste has no pathway, it can't go to WIPP. And 
because of the application by DOE of the NWPA provisions 
regarding the disposal fee, we are looking at a cost to the 
State, at the time of an ultimate repository that may very well 
be prohibitive. So it would open the path for actually getting 
the waste off the site.
    Mr. Shimkus. You also mentioned the--Mr. Gilbertson was 
asked about discussions, and he said that they are routine, 
they are ongoing. But I am understanding from your comments 
that some elements of that discussion have not occurred.
    Mr. Shaw. To be clear, the discussions that I believe Mr. 
Gilbertson was referring to are the discussions with respect to 
the ongoing environmental impact statement process. I commend 
our site staffs, they work well together on a daily basis. They 
work in the same building, a very close working relationship 
there. However, when it comes to this higher level question of 
the defense versus nondefense character of the waste onsite, we 
have attempted to engage and have not been provided much of a 
response.
    Mr. Tonko. Thank you for that clarification.
    Earlier this morning, DOE mentioned that the Department 
does not and cannot own the waste at West Valley. Can you 
explain how the Nuclear Waste Policy Act considers waste 
ownership, and how it is or is not relevant to today's 
discussion?
    Mr. Shaw. My reading of the Act is that it is not relevant. 
The question under section--well, the statement under section 8 
of the Act is that the fee provisions do not apply to ``any 
atomic energy defense activity or to any facility used in 
connection with any such facility.''
    I believe that the facts as we have stated them, and the 
facts that were considered by Congress in passing the Act back 
in 1980, clearly establish that the activities at West Valley 
were defense related. The question of ownership, while it may 
be consistent with the way DOE thinks about other sites, really 
doesn't apply here, and it is a unique site with a unique 
history and a unique waste profile. And, unfortunately, it 
doesn't fit into the boxes that DOE usually applies.
    Mr. Tonko. Thank you. And compared to some other sites in 
the DOE complex, West Valley is relatively small, that is, it 
does not have nearly as much waste as places like Savannah 
River and Hanford. Can you explain why Congress should step in 
and clarify the waste designation as defense related?
    Mr. Shaw. Thank you for the question. Precisely because of 
some of the themes that have been repeated here. It is a unique 
site. It doesn't fit the usual equations that DOE has used in 
the past with respect to deciding pathways for waste. And after 
30 years of attempting to reconcile this disagreement with 
respect to the defense nature of the waste, we don't see 
another pathway forward.
    We have requested the calculation of the fee, as you have 
related numerous times, and that has not been forthcoming. We 
have requested a factual or legal analysis for the designation 
of commercial, and that has not been forthcoming, other than to 
say that it was provided for ``commercial purposes.''
    I will say, lots of private contractors have been handling 
defense waste around the country and made a lot of money on it 
for a long time. That is not the question that needs to be 
answered when determining whether this material is defense 
related or not.
    Mr. Tonko. Thank you. And I understand that the next phase 
of the environmental impact statement process for this site 
recently began. There were a number of community meetings and 
comments have been submitted. Can you summarize the reactions 
you have received and how they relate to this proposed 
legislation?
    Mr. Shaw. Thank you for the question. I think it is 
important to understand the full thrust of the community 
engagement and concern with respect to the site and how it 
relates to this bill. I was at the meetings. Large sectors of 
the community showed up from across the political spectrum to 
emphasize their concern about what would happen to the waste 
and, in particular, to say that it should be a cleanup, a full 
cleanup.
    Obviously, that is one of the options within the SEIS 
process that is being considered. However, there are a number 
of options within the SEIS process, including the full cleanup, 
that won't be practically feasible unless this waste has a 
pathway. And the only way this waste can have a pathway is if 
it is designated as defense waste.
    Mr. Tonko. And the $75 million that is appropriated in 
fiscal year 2018 is also the level included in the Reed bill.
    Mr. Shaw. Yes.
    Mr. Tonko. What is the impact of underfunding West Valley?
    Mr. Shaw. Well, in the past, the funding levels have been 
down in the 60s. That differential between 75 and in the 60s 
doesn't seem like a lot, however, when you consider that nearly 
more than a third of the budget is just to keep the lights on 
and keep it safe, that differential makes a big difference in 
the work that can be done on the site. There is a lot of work 
that is going to be happening over the course of the next 10, 
15 years especially, as they start to go below grade in Phase 
II of the cleanup and, therefore, the need for sufficient 
funding is even more imperative going forward maybe than it has 
been in the past.
    Mr. Tonko. Mr. Shaw, thank you. And my best to the NYSERDA 
team.
    And with that, Mr. Chair, I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair, seeing no other members wishing to ask 
questions, I would like to thank all our witnesses today.
    Before we conclude, I would like to ask unanimous consent 
to submit the following documents for the record: a statement 
for the record from Carmelo Melendez, director, Office of 
Legacy Management at U.S. Department of Energy; a letter from 
the Colorado Department of Public Health and Environment; and a 
letter from Representative Scott Tipton.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. And pursuant to committee rules, I remind 
members that they have 10 business days to submit additional 
questions for the record, and ask the witnesses to submit their 
response within 10 business days upon receipt of the questions.
    Without objection, the subcommittee is adjourned.
    [Whereupon, at 10:00 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning and welcome to our subcommittee hearing where 
we will discuss legislation to reauthorize certain Department 
of Energy (DOE) environmental cleanup projects.
    This Congress, the Energy & Commerce Committee, under the 
stewardship of Vice Chairman Barton and Energy Subcommittee 
Chairman Upton, has looked at several DOE programs with lapsed 
authorizations. Today, we will examine two of those projects 
within the jurisdiction of the Environment Subcommittee.
    DOE's cleanup and disposal projects are not limited to 
high-level radioactive waste. The Department manages and 
monitors other environmental remediation projects such as sites 
authorized under the Formerly Utilized Sites Remedial Action 
Program (FUSRAP), the Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA), and the Resource 
Conservation and Recovery Act (RCRA).
    My Oregon district includes the Department's Lakeview 
Processing and Disposal Sites, which are overseen by DOE's 
Office of Legacy Management. At this location, a uranium mill 
processed ore fifty years ago, leaving behind mill tailings to 
be sent to a nearby disposal cell for safekeeping. When 
Congress passed the Uranium Mill Tailings Remediation Control 
Act of 1978, this site in my district was included as one of 
the 22 inactive ore processing sites to be remediated by DOE.
    The bill sponsored by Representative Tipton extends the 
authorization of a similar disposal cell in his district and I 
am glad to support this effort.
    Additionally, I welcome Representative Tom Reed to speak 
about the bill to reauthorize an important remediation project 
in his western New York district at the West Valley site. West 
Valley was the location of the nation's only commercial 
experience with reprocessing spent nuclear fuel. Cleanup at the 
site continues today, over forty years after the site's 
operations were terminated.
    The Department of Energy and New York State witnesses this 
morning will provide additional context about DOE's ongoing 
activities at the site and remaining challenges, such as 
finalizing a disposal pathway for the project's high-level 
radioactive waste.
    Last week--with a strong bipartisan vote in support--the 
House of Representatives helped pave the pathway for the 
restart of the Nation's nuclear waste disposal program with the 
passage of HR 3053. This should help address some of these 
long-term challenges. Yet, there are further issues to resolve 
to deal with our nation's legacy waste.
    I look forward to working with my colleagues to advance 
these straightforward bills. Thank you and I yield back.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
